<html>
<title> - MARKUP OF H. RES. 1068, H.R. 5493, H.R. 3032, H.R. 281, H.R. 5036; AND AN AMENDMENT TO REGULATIONS GOVERNING THE USE OF OFFICIAL FUNDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
MARKUP OF H. RES. 1068, H.R. 5493, H.R. 3032, H.R. 281, H.R. 5036; AND 
    AN AMENDMENT TO REGULATIONS GOVERNING THE USE OF OFFICIAL FUNDS

=======================================================================



                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 2, 2008

                               __________

                       Printed for the use of the
                   Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
42-897 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman

ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director

                 Will Plaster, Minority Staff Director


MARKUP OF H. RES. 1068, H.R. 5493, H.R. 3032, H.R. 281, H.R. 5036; AND 
    AN AMENDMENT TO REGULATIONS GOVERNING THE USE OF OFFICIAL FUNDS

                              ----------                              


                        WEDNESDAY, APRIL 2, 2008

                  House of Representatives,
                 Committee on House Administration,
                                            Washington, DC.
    The committee met, pursuant to call, at 12:22 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
California, Davis of Alabama, Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; Jamie Fleet, Deputy Staff Director; 
Gineen Beach, Minority Election Counsel; Ashley Stow, Minority 
Election Counsel; Fred Hay, Minority General Counsel; and Bryan 
T. Dorsey, Minority Professional Staff.
    The Chairman. The meeting of the House Administration 
Committee will now come to order.
    We have several matters to mark up today.
    The first order of business is a housekeeping resolution, 
Committee Resolution No. 6, which is before the members.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.001
    
    The Chairman. This will modify the majority membership of 
the Subcommittee on Capitol Security so that Mr. Capuano will 
now chair that subcommittee and I will serve as a member.
    Without objection, the committee resolution is considered 
as read. The resolution is agreed to without objection. The 
motion to reconsider is placed upon the table without 
objection.
    And one caveat to that is I was approached by Mr. Lungren 
to have a private meeting with the Capitol Hill Police and the 
Sergeant at Arms. I agreed to do that, and I hope that the new 
subcommittee chairman would agree to do that, too.
    So, without objection, the motion is laid upon the table; 
and, Mike, you are now the new subcommittee chairman. Would you 
like to make a speech?
    No, you don't want to? Fine.
    The committee will now turn to H.R. 5493, a bill to provide 
that the day for paying staff salaries in the House of 
Representatives may be established by regulations of the 
Committee on House Administration.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 42897A.002
    
    [GRAPHIC] [TIFF OMITTED] 42897A.003
    
    The Chairman. I will make just a brief opening statement on 
this bill.
    The House of Representatives currently pays the staff once 
a month. The executive branch, the Senate and most private 
companies pay their employees twice a month or every one or two 
weeks. I believe we should make the change because once a month 
pay can be very difficult for staffers budgeting on a tight 
paycheck.
    Unfortunately, the committee can't change the pay schedule 
for House employees until we change the law. The bill will give 
the committee the authority to change the day the staffers are 
paid. It won't change their pay schedule right away once this 
bill is enacted. The committee will adopt regulations that 
change the paydays.
    And I thank my friend and colleague, Mr. Ehlers, for co-
sponsoring this bill; and I would like to recognize him for any 
opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Yes, I do support it. But I also want to make it clear that 
this particular bill establishes the authority of this 
committee to make the determinations. I want it to be clearly 
understood that this does not mean that we will automatically 
and soon alter the current House pay schedule.
    I also want to make it clear that this particular bill 
makes it clear that we have the authority and that the CAO 
could not take any action on this without the approval of the 
committee. That was not clear before this law was passed.
    So because there are obvious administrative challenges that 
would impact the CAO and a number of cultural implications 
within the House population that have to be addressed prior to 
making such a change, we have to proceed thoroughly and 
carefully just to make sure it absolutely works and the 
employees agree to it, because it is going to affect their pay 
in some ways. Many employees pay their mortgages, utility bills 
and other financial obligations in concert with the monthly pay 
schedule. We have to investigate to what extent the employees, 
how they will change their monthly pay schedule into a 
bimonthly pay schedule. So there are a number of issues that 
have to be addressed.
    And as I say, I am not opposed to it at this time, but I am 
opposed to just jumping into it without the committee fully 
looking through these efforts and working with CAO on it and 
make sure that this bill does require a final vote of the 
committee before that goes into effect.
    Thank you, Mr. Chairman. I reserve the balance of my time.
    [The statement of Mr. Ehlers follows:]

    [GRAPHIC] [TIFF OMITTED] 42897A.004
    
    [GRAPHIC] [TIFF OMITTED] 42897A.005
    
    The Chairman. Thank you.
    Would anybody else like to speak on this?
    Mr. Ehlers. I yield back the balance of my time.
    The Chairman. I now call up H.R. 5493. Without objection, 
the first reading of the bill will be dispensed with; and 
without objection the bill is considered as having been read 
and open for amendment at this point.
    Is there any debate?
    If not, I move the committee report H.R. 5493 favorable to 
the House. All those in favor, signify by saying aye.
    Any opposed?
    The ayes have it, and the motion is agreed to. Without 
objection the motion to reconsider is laid upon the table and 
the bill is reported to the House.
    The next item of business, House Resolution 1068.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 42897A.006
    
    [GRAPHIC] [TIFF OMITTED] 42897A.007
    
    The Chairman. Again, I will make just a few brief 
statements.
    We received a specific request from the liaisons who serve 
in each of the branches of the military and assist us daily in 
the House of Representatives. They have just a simple favor to 
ask, that they be allowed to use the House staff gym since they 
work here far away from their ordinary military physical 
fitness facility.
    In order to ensure that these military liaisons can 
maintain their physical fitness and readiness while they serve 
here in the House, this House resolution will allow them to use 
the House staff gym. The committee will adopt a resolution for 
use of this facility.
    Again, I thank my friend and colleague, Mr. Ehlers, for co-
sponsoring this resolution. I recognize him for any opening 
statement.
    Mr. Ehlers. Thank you, Mr. Chairman. Just very briefly.
    I think this is a good idea. I heard many years ago, and I 
have always remembered the statement, that an Army travels on 
its stomach, indicating the importance of food to an Army. 
However, I want to make sure that the stomachs of the military 
liaisons don't get too big, and so this will very neatly help 
them retain their trim shape that they need if they are called 
back to active duty. So I support it.
    The Chairman. Thank you, Mr. Ehlers.
    Anybody else have any comments?
    I call House Resolution 1068.
    The Chairman. Without objection, this resolution will be 
considered as read and open for amendment at any point. I offer 
an amendment to make a minor change to ensure the Coast Guard 
liaison can be included, also.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.008
    
    The amendment is considered as read. Is there any 
discussion on that amendment?
    If not, the question is on the amendment. All those in 
favor, say aye. Any opposed, say no.
    The ayes have it, and the amendment is agreed to.
    I move that the committee report House Resolution 1068 as 
amended favorably to the House. All those in favor signify by 
saying aye. Any opposed?
    The ayes have it. The motion is agreed to. Without 
objection, the motion to reconsider is laid upon the table.
    The final item of business is approval of an amendment to 
the regulation governing use of official funds by Members, 
committees and officers of the U.S. House of Representatives, 
the Alternate Ride Home amendment, which is before the members.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.009
    
    [GRAPHIC] [TIFF OMITTED] 42897A.010
    
    The Chairman. This regulation will help staffers who travel 
to work by carpool, mass transit or anything other than a 
single passenger car. For example, when the House is in session 
late and travel home is not safe or sometimes not even possible 
after the Metro closes, this regulation would reimburse their 
taxi fare. The employees will fill out an Alternate Ride Home 
form, which we will make available on HouseNet, and that form 
will then be attached to the voucher submitted in support of 
the payment of the taxi fare. The employee authorizing will 
sign off on the validity of the expense and the cost of 
approval of the voucher.
    Because this regulation authorizes a new category of 
reimbursement expense, I have agreed to ask the House Inspector 
General to review use of this for up to 6 months so we can see 
how often it is being used or whether additional controls are 
needed.
    We had first planned to adopt this regulation at a business 
meeting on February 12, but our Republican colleagues expressed 
concern about whether the rule might be abused, and I agreed to 
hold off and to try to reach an agreement. Over the last 6 
weeks or so, we have exchanged numerous drafts; and we have 
agreed on 9 out of 10 issues.
    We still have one minority disagreement about whether a 
taxi fare should be repaid on days when the House is not in 
session. I have decided we should go forward with this 
resolution without that limitation, rely on the discretion of 
our colleagues to use this authority appropriately and keep the 
staff safe.
    Too often, we ask our staff to stay late at night when a 
bill must be considered or to negotiate conference reports 
throughout the weekends; and the need for safety is not just a 
function of when the House is in session.
    This is a new regulation that will seek to review advice 
from the IG on the issue. I know the Republican colleagues are 
concerned that it might be abused, but I hope that they will 
trust that we can add further controls if that turns out to be 
necessary.
    And now I would like to recognize again Mr. Ehlers for any 
statement.
    Mr. Ehlers. Thank you, Chairman Brady.
    I commend you for making the safety and security of the 
House staff a priority. Those employees whose work requires 
them to be present when mass transit or their arranged method 
of transportation is unavailable should not be penalized 
financially.
    That being said, however, I have strong concerns that the 
language of the Alternate Ride Home program is fairly broad and 
is vulnerable to the possibility of abuse. We have seen before 
that the ill intent of a few can ruin a benefit for the many. 
With that in mind, I join you in your request that the House 
Inspector General, Jim Cornell, review this program in 6 months 
to ensure that it is being used in the spirit in which it was 
intended.
    Let me also add, Mr. Chairman, that you mentioned the 
factor that we had suggested it not apply when we are not in 
session. And I understand the reason for your objection; and, 
frankly, I think you are right.
    I do have a suggestion for you to consider that perhaps we 
could add in mutual agreement when it goes to the floor, and 
that would be that this would not apply when Members are at 
home in the district work period. Because very, very rarely I 
think do any staff members have to work late when we are not in 
town. So if you just consider that, and we can talk about 
adding that later when it hits the floor.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.011
    
    The Chairman. Okay. I call the amendment to the regulation. 
Is there any debate? Any debate on any of that?
    Mr. McCarthy. Mr. Chairman.
    The Chairman. Yes, Mr. McCarthy.
    Mr. McCarthy. I appreciate the opportunity.
    Not so much about this, but this would open up the Member's 
Handbook. And the only thing I want to do is take the 
opportunity, because we may be doing some more work on that, 
and praise Mr. Capuano on our Franking Commission what we are 
doing looking on other items when it comes to computers and the 
Web sites that we may be dealing with the handbook as well, so 
there maybe some other stuff to move. And I appreciate all the 
work you have done.
    The Chairman. Okay. Thank you.
    Is there any further debate?
    Without objection, the previous question is ordered. The 
question is on approval of the amendment. All those in favor, 
say aye. Any opposed?
    The ayes have it. The amendment to the Regulations is 
adopted, and without objection the motion to reconsider is laid 
upon the table. The staff is authorized to make the technical 
conforming changes.
    Okay. The next item on the agenda H.R. 3032, a bill to 
amend the Federal Election Campaign Act of 1971 to permit 
candidates for election for Federal office to designate an 
individual who will be authorized to disburse funds of the 
authorizing campaign committees of the candidate in the event 
of a death of the candidate.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.012
    
    [GRAPHIC] [TIFF OMITTED] 42897A.013
    
    [GRAPHIC] [TIFF OMITTED] 42897A.014
    
    The Chairman. H.R. 3032, sponsored by Mr. Jones of North 
Carolina, will assure candidates for Federal office that the 
funds raised by the campaign commission will be distributed 
only in accordance with the express wishes after they are 
deceased. It would permit a candidate for Federal office to 
designate a person to disburse the funds of the candidate's 
campaign committee in the event of the candidate's death. The 
bill will make no other changes in the terms and conditions 
that govern the disbursement of funds under the Federal 
Election Campaign Act.
    I would now again like to recognize the ranking member, Mr. 
Ehlers, for any statements.
    Mr. Ehlers. Thank you, Mr. Chairman, for taking this bill 
up.
    I think one of your staff members commented that this 
really didn't need to be done and anyone could do it. The fact 
is that many Members don't do it, and there have been cases 
where there have been disputes after the fact.
    I have taken care of it myself by just having, when we had 
wills prepared, just having the attorney draft a letter, and I 
indicated in the letter how I wanted the leftover campaign 
funds disbursed, and this would be notarized by my wife and 
myself. But I would much prefer this bill, which is Congressman 
Jones' bill.
    The reason he developed it and came to me is because they 
had the similar situation when his father, who was in office, 
died; and the big question arose who controls where the money 
goes, who decides? And under current law the treasurer has 
total and complete freedom. The treasurer of the campaign has 
total and complete freedom to do whatever he wants with the 
money. That made the Jones family very nervous in terms of what 
could happen, not in their particular case, but in other cases.
    So this is, I believe, a very good bill which will make it 
clear. Each one of us will be given the opportunity to 
designate someone to make the decision on the disposal of our 
leftover campaign funds and instructing the treasurer how to do 
it and how to disburse them.
    It also provides that if you wish to designate two 
individuals in case one of them is deceased--if, for example, 
you name your wife and you and your wife are killed 
simultaneously, then someone else who understands your wishes 
could take over.
    The registration would be with the FEC. And again not 
mandatory. But you would be given an opportunity when you file 
your campaign statement of organization to specify this. It 
would remain on record until you change it or remove it.
    So I think it is a good bill because it removes an 
impending argument that might develop or dissatisfaction with 
the treasurer's discretion when you reach this point. And 
someone said, well, if you don't have faith in the treasurer, 
go get another treasurer. It is a little hard to do once you 
are dead. So I think this is a much better approach to take, 
and I urge adoption of the bill.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.015
    
    [GRAPHIC] [TIFF OMITTED] 42897A.016
    

    The Chairman. Mr. Capuano, I would like to recognize you, 
because I think that Mr. Ehlers probably incorporated your 
amendment along with one of his. But I know that you wanted to 
say a few words on it because you just can't help yourself.
    Mr. Capuano. It is a good amendment.
    The Chairman. Thank you.
    I would like to backtrack again. I missed an amendment that 
Mr. Ehlers also has, and I would like to recognize Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chair; and I apologize I didn't 
mention it before.
    I have a simple amendment that just clarifies the original 
Jones bill. When I made my comments earlier, I was referring to 
the content of both the Jones bill and my amendment. I would be 
happy to answer any questions anyone might have. But the 
amendment has been placed before everyone.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.017
    
    [GRAPHIC] [TIFF OMITTED] 42897A.018
    
    The Chairman. We have no other questions on that amendment.
    All those in favor, signify by saying aye. None opposed. 
Then that amendment also passes.
    Mr. Capuano is recognized. Your amendment was incorporated 
with Mr. Ehlers. We have already voted and passed on that.
    Without objection, the staff are authorized to make the 
technical and conforming changes to H.R. 3032.
    And now I would like to move the committee report 
favorably, the bill H.R. 3032.
    All those in favor, signify by saying aye.
    Any opposed? No.
    The ayes have it; and, without objection, the staff will be 
authorized to make the technical and conforming changes to H.R. 
3032.
    The next order of business today will be consideration of 
H.R. 281, the Universal Right to Vote by Mail Act.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.019
    
    [GRAPHIC] [TIFF OMITTED] 42897A.020
    
    [GRAPHIC] [TIFF OMITTED] 42897A.021
    
    The Chairman. Rather than making an opening statement, I 
would like to recognize the bill's sponsor, Mrs. Davis, to 
explain the bill.
    Mrs. Davis of California. Thank you, Chairman Brady and 
Ranking Member Ehlers. I want to really appreciate your 
bringing this to the committee, H.R. 281, the Universal Right 
to Vote by Mail Act. I want to thank Election Subcommittee 
Chairman Lofgren for her outstanding leadership; and, also, I 
want to acknowledge Ranking Member McCarthy, who has helped me 
talk this through and work with me across party lines.
    Since the Election Subcommittee has already held two 
extensive briefings on this topic, I am going to try and be 
very brief.
    As we all know, this straightforward bill would simply give 
any eligible voter the option of voting by absentee ballot. No 
longer would an antiquated patchwork of State laws prevent 
voters from voting because they have work, family or other 
commitments. No longer would any voter in this country have to 
find the money or the time for a notary to sign an absentee 
request form. No longer would any American voter have to 
compromise personal privacy by having to list vacation 
destinations, medical information or employment details just to 
vote absentee. And no more doctor notes. This bill would level 
the playing field by allowing voters in the States that do not 
have no excuse absentee voting to catch up with the 29 States 
that do.
    As a former school board member and State legislator, I 
certainly adhere and believe strongly in States' rights. But 
let me be clear about this bill. It does not alter State 
absentee processes and time lines. It does not place an undue 
burden on election officials. It does not make them do 
something new. All it does is expand the pool of people 
eligible for something they already do.
    We are a Federal committee and we are not doing our jobs if 
we accept that some States are allowing some people to be more 
eligible to vote than others when we are all voting for the 
same President.
    I wanted to just close by quoting from a letter to the 
editor from the New Orleans area Times-Picayune by a voter 
named Megan Boyle.
    In it she says, I will be out of town during the runoff 
election. Since I will also be out of town during early voting 
the week before, I am required to go to the office of the 
Jefferson Parish Registrar of Voters between 8:30 and 4:30 for 
early voting at the Elmwood location because I live in East 
Bank. I work from 8 to 5, she says, on the West Bank and would 
have to miss work in order to vote. And she underlines, voting 
should not be so inconvenient that a citizen would choose not 
to vote.
    We can wait for every State to adopt no excuse absentee 
voting or we can take what I think is a very simple step today.
    I also want to move forward and just share with you that I 
would accept the amendments from some of my colleagues and have 
agreed to accept Mr. McCarthy's amendment requiring signature 
verification, which is something that most States already do. I 
think that is important, and I certainly would move forward 
with it. I visited our election of voters on numerous occasions 
and watched them do this, and they are professional and 
experienced at it.
    And I am also willing to take Mr. Ehler's amendment 
extending the date of implementation to 2010. I agree that 
States should have time to phase this in, but I hope that many 
would start by 2008, which may be the highest turnout election 
in our Nation's history. Moving to no excuse absentee voting 
will actually assist their processes.
    I hope that my colleagues on the committee will join me in 
passing this important measure, and I want to thank you all for 
your attention on it and the time that you spent in taking a 
look. Thank you.
    The Chairman. Thank you.
    I would like to recognize Mr. Ehlers' for an opening 
statement.
    Mr. Ehlers. Thank you, Chairman Brady, and also thank you 
to Representative Davis for her work on this bill.
    While I personally think it is important that we make 
voting as accessible as possible, my primary concern regarding 
this and other legislation relating to absentee voting is that 
we must put in place at the same time the appropriate 
safeguards to ensure that legitimate votes are not cancelled by 
fraudulent ones. Opening up such a wide breadth of 
jurisdictions to no excuse absentee voting may provide more 
citizens with an opportunity to vote, but it may also present 
those with dishonest intentions a new opportunity to commit 
fraud.
    And I might say I am not castigating absentee voters by my 
statement. It is just that it leads to the opportunity for 
others to manipulate absentee ballots and absentee voters to 
achieve nefarious ends.
    To that effect, I am offering several amendments to the 
bill; and I believe my colleagues on this side of the aisle 
have others to offer. As with all of our elections legislation, 
we must monitor the implementation of these provisions 
carefully to ensure that, in the interest of making voting 
easier, we are not sacrificing the security of our election 
system.
    Thank you, and I reserve the balance of my time.
    Although, Mr. Chairman I have received a letter--I believe 
everyone on the committee has received a letter from the 
National Conference of State Legislators, which has written a 
letter expressing serious concerns about H.R. 281. I ask 
unanimous consent that that letter be placed in the record of 
today's markup.
    The Chairman. Without objection.
    [The statement of Mr. Ehlers follows:]
    [In addition, pursuant to a unanimous consent request by 
Mrs. Davis of California, and Mr. Ehlers on page 143 of this 
transcript, six letters of support and one letter in opposition 
of H.R. 281 follow:]
[GRAPHIC] [TIFF OMITTED] 42897A.022

[GRAPHIC] [TIFF OMITTED] 42897A.023

[GRAPHIC] [TIFF OMITTED] 42897A.091

[GRAPHIC] [TIFF OMITTED] 42897A.092

[GRAPHIC] [TIFF OMITTED] 42897A.093

[GRAPHIC] [TIFF OMITTED] 42897A.094

[GRAPHIC] [TIFF OMITTED] 42897A.095

[GRAPHIC] [TIFF OMITTED] 42897A.096

[GRAPHIC] [TIFF OMITTED] 42897A.097

[GRAPHIC] [TIFF OMITTED] 42897A.098

[GRAPHIC] [TIFF OMITTED] 42897A.099

[GRAPHIC] [TIFF OMITTED] 42897A.100

[GRAPHIC] [TIFF OMITTED] 42897A.101

[GRAPHIC] [TIFF OMITTED] 42897A.024

[GRAPHIC] [TIFF OMITTED] 42897A.025

    The Chairman. Any other members who would like to make a 
statement?
    I now call up and lay before the committee H.R. 281. 
Without objection, the first reading of the bill will be 
dispensed with. Without objection, the bill will be considered 
as read and open to amendment at any point.
    Any amendments?
    Mr. Ehlers. All right. The first one I have, Mr. Chairman, 
is a very simple one, which the author of the bill has already 
agreed to. This amendment postpones--it is Ehlers Amendment No. 
1. It postpones the effective date of the Act until the year 
2010.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.026
    
    The Chairman. The gentleman is recognized for 5 minutes.
    Mr. Ehlers. I think it is so simple it will be accepted. I 
won't spend any time discussing it.
    The Chairman. The question is on Mr. Ehlers' amendment to 
the bill. All those in favor, signify by saying aye. Any 
opposed? No.
    The ayes have it, and the amendment is agreed to.
    Any other amendments?
    Mr. Ehlers.
    Mr. Ehlers. Ehlers Amendment No. 2. This amendment provides 
that a State shall, before providing an individual with an 
absentee ballot, pursuant to this Act, require such individual 
to sign under penalty of perjury a statement attesting that the 
ballot was requested voluntarily and without coercion and that, 
should such ballot be voted, it will be voted freely and 
without undue influence.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.027
    
    Mr. Ehlers. And I move the amendment. I think it is very 
clear and straightforward. It gets at one of the fraud aspects 
that we are concerned about, and it does not in any way impose 
a great burden on the voter. It simply asks them to sign an 
attestation that it has been voted freely and without undue 
influence. That is trying to get at the possibility, as I 
mentioned earlier, of fraud where someone is trying to induce a 
voter to do something wrong. And if they sign this they are 
saying simply no one has tried to unduly influence them.
    The Chairman. Any other questions?
    Mrs. Davis.
    Mrs. Davis of California. I would be happy to speak to 
that.
    I appreciate Mr. Ehlers' concern, but I think that, you 
know, we have--in many, many States that already do have no 
excuse absentee voting, this has not been a problem for them. 
They know that people sign under penalty of perjury and a fine 
and imprisonment for up to 5 years if there is anything in that 
absentee ballot that is not accurate. We don't ask people that 
question under other circumstances. So even though I appreciate 
the intent of it, I certainly don't think that people in States 
that are not included in no absentee, no excuse absentee voting 
today are any less forthright than in other States; and we 
would be putting a burden on them perhaps that is not in other 
States. And so I, in due consideration, don't think that would 
be applicable.
    The Chairman. Mr. Davis
    Mr. Davis of Alabama. Thank you, Mr. Chairman. I will be 
brief.
    I want to echo what Mrs. Davis said and then raise one 
other practical concern to the ranking member. It would seem 
that under your amendment that someone could potentially 
challenge a ballot that didn't have the attestation on it. And 
ordinarily in the normal context obviously no one should be 
unduly influenced in any kind of election, whether it is an 
absentee ballot or not. So it would seem that Mrs. Davis is 
correct that you may be adding an extra layer of certification 
here that is not ordinarily applicable; and, because of that, I 
wonder if someone could potentially challenge a written or 
absentee ballot. Though there was no basis whatsoever to 
question the validity of that ballot, the failure to have the 
attestation could become a basis of challenge; and I am not 
sure if that would be the intent. I am not sure if that is your 
intent or not, and I will yield to you to answer that.
    Mr. Ehlers. Thank you. I appreciate you yielding.
    That is certainly not my intent, and I would assume that 
this would just be--well, just use the example we have in 
Michigan. We are required to sign the ballot that we send in. I 
think almost every State that has absentee voting requires the 
voter to sign the ballot. And, in fact, an amendment we will 
have later will require the local elected officials to compare 
the signature on the ballot with the signature on record with 
the registration just to make sure that they are the same.
    I do not intend for this to be a separate statement which 
requires a separate signature. It is an assumption of mine that 
it would just be under the current statement that the voter has 
to make that they are signing this, that this is their ballot 
and so forth, that they have done it without help. Just add the 
statement under there and they still have one signature, the 
same signature, just adding an additional statement to make it 
clear to the voter that if there is someone leaning over their 
shoulder or someone saying I will give you five bucks if you 
vote this way they recognize they are not supposed to do that 
and certainly wouldn't sign it if they had done it.
    So I don't think it is any greater burden on the voter at 
all. They are still signing it. It just increases the length of 
the statement slightly.
    Mr. Davis of Alabama. I will just reclaim my time.
    I take the gentleman's point in good faith. The only 
concern that I would raise, as you are well aware, a lot of 
these challenges to ballots play out at the local level, county 
level, as opposed to the State level; and it would not strike 
me as being beyond possibility that in future elections that if 
your provision were added that someone who wanted to challenge 
a ballot for whatever reason could at least cite as an 
evidentiary point that the attestation was not signed. So I 
take your point that that is not your intent, but I am 
concerned it could become yet another thing that could be a 
subject of dispute in some elections.
    Mr. Ehlers. If the gentleman would yield again. The 
signature is currently there. They could challenge it at this 
point, too. I don't recall in my years of being involved with 
polling that anyone has challenged on the basis of a lack of 
signature. But it is possible that the clerk of the unit of 
government may just automatically rule them out if they send in 
a document without the signature.
    Mr. Davis of Alabama. Well, reclaiming my time just to 
finish on this point, I agree with you about the need to have a 
signature so someone could attest the person is whom she claims 
to be. I am simply making the additional point that if you have 
another requirement that someone attest that they weren't 
subject to undue influence, the failure to make that 
attestation could potentially be cited as proof if that ballot 
were challenged. And I would just--I don't want to prolong 
this, but just by making that point that that could become an 
extra layer of contest, and I think that would not be our 
intent as supporters of the bill.
    Mr. Ehlers. If I may, if you will yield to me one last 
time, I just would reiterate this is just an additional 
statement, not an additional signature. I don't think it 
provides any additional grounds for rejecting it. If the 
signature is there, what can you say? They are not going to 
stop it for that reason.
    I yield back.
    The Chairman. Anybody else?
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I respect what the ranking 
member is trying to do, and I am not worried about an extra 
signature. Have them sign 10 times. My concern is that the 
basic--if someone is under coercion, you are forcing them, for 
all intents and purposes. If somebody has a gun to my head and 
says ``sign this'', I am signing it; and now I have broken the 
law because I have committed perjury.
    I would argue that if the goal was to stop coercion, 
inappropriate activity, then we should go after the people who 
are causing the inappropriate activity and make it a crime to 
coerce someone. And that I think is fine. But to make, under 
the scenario, the victim also now a criminal strikes me as 
targeting the wrong person.
    And as far as--I think there should be some discussion, 
what do you mean by coercion? I know what it means in the 
vernacular, but when you get into a law I don't think that 
taking a bribe is coercion. It is a bribe, but it is not 
coercion. Is it coercion when you are getting an absentee 
ballot because somebody gave your cousin a job? What is 
coercion?
    And I am not arguing that we shouldn't have that 
discussion. I think it is a fair discussion. I agree with you. 
I am not looking to allow or encourage or enable anybody to 
coerce anyone. I totally agree with that. But I don't think 
this does it.
    What this simply does is, if someone is truly under 
coercion, gun to the head, they are going to sign this thing. 
And now they have broken the law. They have committed perjury. 
And I don't think that is the right goal. I think we should 
have an amendment at some point along the process that says, if 
you coerce someone, you are the one breaking the law, not the 
victim.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Capuano. I certainly do.
    Mr. Ehlers. So far as I know, that is already contrary to 
the law.
    Mr. Capuano. I think it is, too.
    Mr. Ehlers. I would hope that anyone who is coerced would 
immediately report the crime to the appropriate authorities or 
somehow refuse to sign it. I know people feel strongly about 
the secret ballot and not being coerced. My wife doesn't let me 
see who she votes for, and I have been unable to coerce her.
    Mr. Capuano. My wife requires me to show who I am voting 
for. I have to get approval.
    Mr. Ehlers. Well, so far as I know, my wife may vote 
against me every time, and I don't expect that she has, unless 
she wants me to stay home more.
    But my point is simply coercion is going to be rare. But 
this will just call the voter's attention to it and say, hey, 
if you are coerced, don't sign it; or if you are forced to sign 
it, report it.
    Mr. Capuano. In that case, I have no problem. But I don't 
like the concept of committing perjury, under the pains and 
penalties of perjury, and now subjecting them to criminal 
penalties. I have no problem with putting a statement there 
saying, yeah, I signed this on my free will. That doesn't 
bother me. That is just another statement. I have no problem 
with it.
    If the idea is to draw the attention to the voter, that is 
fine, but that can be done by a statement, as opposed to 
signing something under the pains and penalties of perjury, 
which is a different matter.
    Mr. Ehlers. Mr. Chairman, I recognize the arguments. I 
guess we can put it to a vote. But I would be happy to pursue 
this with the other committee members later.
    The Chairman. Certainly.
    Mr. Davis of Alabama. Will the gentleman yield for just one 
point? Mr. Capuano, I think actually in some way is 
underscoring a point that I made. I take your point that you 
are not requiring a separate line of attestation and a separate 
signature. You have made that clear. But I think Mr. Capuano's 
point is still important.
    This may seem like a farfetched scenario to the ranking 
member, but I could imagine that in a contested election some 
individual could say I was part of a meeting or part of a 
hearing and these folks said they were going to go out and get 
these absentee ballots out at a nursing home and it sounded to 
me if they were going to coerce these older people to sign 
these ballots.
    And, right now, under the current law, under this bill as 
it currently stands, no one could really challenge a ballot on 
the theory that they had proof of coercion unless there was 
some direct problem with the ballot itself. Because you are 
adding a requirement that some one state under penalty of 
perjury that they were not coerced, arguably someone making a 
false statement would subject themselves to a challenged 
ballot. That controversy could be triggered if someone made an 
allegation that a group of people were engaging in coercive 
activity.
    And, again, it may seem farfetched to us today, but in this 
day and age of hyperlitigation and partisanship back and forth 
I could imagine someone saying, ``I know that the citizens for 
good government in Johnson County, Texas, are trying to coerce 
people to vote, so therefore I am going to challenge all of 
these ballots because this is where I know they were working 
that day.'' And it becomes one more thing that could be 
challenged in the context of an election. You couldn't do that 
kind of a challenge today.
    And, with that, I would yield back.
    The Chairman. The question one is on Mr. Ehlers' Amendment 
No. 2 to the bill. All those in favor, signify by saying aye. 
All those opposed, say no. No.
    Mr. Ehlers. Ask for a roll call vote.
    The Chairman. I would like to have a roll call. Will the 
clerk please call the roll.
    The Clerk. Ms. Lofgren.
    [No response.]
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Capuano votes no.
    Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Davis of Alabama votes no.
    Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Ehlers votes aye.
    Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. Lungren votes aye.
    Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. McCarthy votes aye.
    Mr. Brady.
    The Chairman. No.
    The Clerk. Mr. Brady votes no.
    The Chairman. The ayes are three. The nays are four. The 
amendment fails.
    Mr. Ehlers, do you have another amendment.
    Mr. Ehlers. Yes.
    The Chairman. The Chair recognizes Mr. Ehlers for an 
amendment.
    Mr. Ehlers. Sorry for the delay, Mr. Chairman. Somehow my 
things got out of order in the notebook.
    I offer Ehlers Amendment No. 3. This amendment provides 
that no provision of this Act shall restrict the right of any 
State to continue to enforce any condition or requirement 
concerning the eligibility of an individual to obtain an 
absentee ballot by mail provided that such condition or 
requirement is in effect as of the enactment date of this Act.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.028
    
    Mr. Ehlers. Mr. Chairman, that is basically a response to 
the letter I previously entered into the record from the 
National Conference of State Legislatures who are objecting to 
us imposing more Federal requirements on local and State 
elections.
    As you know, for many, many years all the elections in this 
country were controlled by State or local officials; and it 
wasn't until we passed HAVA that we had direct Federal 
involvement in running elections. And theoretically our only 
basis for doing that is for Federal candidates.
    The folks from the National Conference of State 
Legislatures are basically saying, look, we have been running 
elections for over 200 years. We know how to do it. We don't 
like the fact that you are going to tell us how to do it. And 
so this amendment would honor that protest by saying we will 
grandfather in all those who are currently doing it in their 
own way and not following the principles of this bill; and that 
constitutes, I believe, some 22 States.
    And I would hope that eventually they would agree with all 
the provisions of the bill, but I think we really are going to 
have to work with them for a while and point out to them the 
advantages of Congresswoman Davis's bill. And eventually I 
think they would be on board.
    But as a former elected official at the local level and the 
State level, I know how much resentment there is against the 
Federal Government coming in and saying, we are from the 
Federal Government. We know better. You are going to do it our 
way. So this is an attempt to honor that and just say, okay, 
you can keep doing it your way, and then continue to work with 
them to try to persuade them that our way is better. So I offer 
that amendment.
    The Chairman. The Chair recognizes Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman; and, 
once again, I appreciate Mr. Ehlers's concern here.
    I was, obviously, a member of NCSL for a period of time. 
But I think that what we are saying is that we want people to 
be able--it is the ``who''. We are not telling them how. We are 
just telling them who. People should be able to do this. And 
what I think your amendment does is essentially gut the bill. 
Because it says if you have to list excuses, if people have to 
engage in that process, that we are not going to ask them to 
proceed at least until initially 2010, I think, to bring them 
on line with other States.
    And in Michigan, of course, people would still have to 
respond in terms of whether or not they can attend because of 
tenets of their religion, whether they are going to be out of 
the community for the entire time on election day. There are 
just a number of things that they have to do, and it is in the 
best interest of moving this forward to not allow States to 
continue to do what they have always been doing without pushing 
them forward. And I think that is what we are doing. We are 
doing it within a reasonable time frame as we accepted your 
amendment.
    And I think that NCSL will come on board. I think they 
weren't paying attention earlier. They are very happy to work 
with us. We have spoken with them, and I think that we can move 
them along as well. I think they are very happy to do that.
    Mr. Ehlers. Will the gentlewoman yield? Will you yield?
    Mrs. Davis of California. Yes, sir.
    Mr. Ehlers. Thank you for yielding.
    I recognize that argument, and I have some sympathy for it. 
But I would much prefer that we work out the problem earlier, 
rather than simply impose this on them.
    I have great respect for NCSL, and I don't think they wrote 
the letter in haste or anger or by accident without knowing the 
facts. I think that it accurately reflects their feelings, and 
I would much prefer that we adopt the amendment and over the 
course of a few years work with them to change the systems they 
are using. In other words, I am saying let us use a soft 
leather glove instead of a boxing mitt to try to change their 
laws.
    I yield back.
    The Chairman. Any other discussion?
    The question on Mr. Ehlers' Amendment No. 3 to the bill. 
All those in favor, say aye. All those opposed, no. No.
    In the opinion of the Chair the noes have it.
    Mr. Ehlers. I would ask for a roll call.
    The Chairman. A roll call vote is requested. The clerk will 
call the roll.
    The Clerk. Ms. Lofgren.
    [no response.]
    The Clerk. Mr. Capuano.
    Mr. Capuano. I am a no.
    The Clerk. Mr. Capuano votes no.
    Mr. Gonzalez.
    [no response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mrs. Davis of California votes no.
    Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Davis of Alabama votes no.
    Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Ehlers votes aye.
    Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. Lungren votes aye.
    Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. McCarthy votes aye.
    Mr. Brady.
    The Chairman. No.
    The Clerk. Mr. Brady votes no.
    The Chairman. The ayes are three. The nays are four. The 
amendment is not agreed to.
    Mr. Ehlers. Mr. Chairman, that is the first time I have 
ever lost a vote because a ghost pops out of the closet.
    The Chairman. The Chair would like to recognize for an 
amendment Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman.
    I want to first thank Congresswoman Davis for working on 
this legislation.
    I have an amendment. It would be McCarthy Amendment No. 2. 
This amendment provides that the State shall implement a voter 
signature verification system, that the voter signature on each 
absentee ballot shall be verified by such system prior to the 
acceptance and processing of any voted absentee ballot cast 
pursuant to this Act.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.029
    
    Mr. McCarthy. It is mainly saying, and one thing that 
happens within California, in our hearing that we found the 
biggest form of fraud that you ever get is with absentee 
ballots. Because a person can go and apply, never seeing an 
individual, put in an address, and apply for an absentee, 
never, ever making a verification.
    So what happens here in this process would be, much like 
within California--and in Michigan they are going to a 
digital--that an absentee ballot comes in. You have to sign the 
back of the ballot. The individual at the elections office that 
is working year round, not a one-day individual, pulls it up, 
if they have training, and digitally would see the signature of 
the registration and verify that against the absentee ballot 
outside signature before you open up and cast the ballot.
    So it is a step of protecting the fraud which I know 
individuals have the fear of within here. I think this goes a 
long way to help in that procedure, and we allow the States to 
adapt signature verification which they select.
    I would ask for a vote.
    The Chairman. The Chair recognizes Mrs. Davis.
    Mrs. Davis of California. I appreciate Mr. McCarthy's 
amendment, and I agree with it. Thank you.
    The Chairman. You agree with the amendment? You agree with 
the amendment being accepted?
    Mrs. Davis of California. Is that actually No. 1?
    Mr. McCarthy. That was No. 2. I just went out of order 
because I wanted to start on a positive note.
    Mrs. Davis of California. Okay. But it is 1 on mine.
    Mr. McCarthy. Is that 1 on yours? It is 2 on mine.
    The Chairman. They do that from time to time, and it works 
from time to time, but we are accepting it. I think this is the 
one that we are accepting.
    Mr. McCarthy. If we accept both, that is all right with me.
    The Chairman. All those in favor accepting--wait. This is 
No. 2. He is taking the signature verification, which is No. 2. 
All those in favor of the amendment, signify by saying aye. Any 
opposed, no.
    The ayes have it. The amendment is agreed to.
    Now we have before us McCarthy amendment No. 1.
    Mr. McCarthy. Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.104
    
    Mr. McCarthy. Now this amendment takes from kind of what 
Mr. Davis was saying earlier. When you deal with legislation 
like this, there could be some unintended consequences based 
upon the language within the bill. And the intent with the 
hearing and what I have heard from Mrs. Davis has been you have 
these roadblocks for individuals to get an absentee ballot 
based upon the process that they are going to be out of town. 
New York makes a doctor do seven different ones. In Virginia, 
you have to sign your business hours and your business address. 
Those are little roadblocks, so we are trying to knock that 
down.
    But I would never want an individual to take--and if you 
read the language in page 3 of the bill, line 5 through about 
line 9, it says, the State may not impose any additional 
conditions or requirements on the eligibility of the individual 
to cast the vote in such election.
    What could happen here is kind of what Mr. Davis was 
saying. Someone could say that with this bill we are now 
waiving any rights of the States to have eligibility on a 
person to cast the ballot.
    Because I am viewing it as twofold, I want to knock down 
any roadblock a person has to apply. I still want to empower 
the State to be able to check before the ballot is cast, is 
this person eligible to do that vote. I don't want to take away 
any rules or laws that current States have.
    As we have these other hearings, we know Indiana has a 
different law on the eligibility because States have the power 
to do that on who is eligible to vote in that process. So I 
believe this clarifies the intent of what Mrs. Davis was trying 
to do, and it clarifies what I believe we were trying to do 
through the hearings and still empowers the State to have that 
ability for eligibility in what they have and someone take the 
language here and applies it different than what we are trying 
to. That is what the intent of this amendment does.
    The Chairman. I thank the gentleman.
    Mrs. Davis.
    Mrs. Davis of California. I appreciate that, Mr. McCarthy. 
The bill is really silent on that, and so I don't think that 
there is anything that is added here.
    I am not sure the clarification is needed to suggest that 
the States couldn't do that if they have already chosen to do 
that. What we are just trying to do is define the fact that 
there is no excuses for absentee voting and that we want to 
verify, of course, the fact that that is the person and that is 
what most States are doing. So it is really silent on that. I 
don't think it puts any more pressure on States to either 
increase that or to take that away.
    Mr. McCarthy. If the gentlelady would yield for just maybe 
a colloquy here. In lines 7 and 8, if you read on page 3 of 
your bill, a State may not impose any additional conditions or 
requirements on the eligibility of the individual to cast the 
vote. By using the word ``cast'' the vote--and this may be a 
place where Mr. Davis, I believe he is an individual who has a 
great brain when it comes to legal issues and looking down the 
road--by using the word ``cast'' the vote, couldn't we say--
couldn't someone take this from a legal manner and wipe away 
any requirements that a State may have by basing on casting 
that vote, such as a person would say, because you applied by 
absentee mail, that you mailed in your voter reg, some States 
say the first time you do that and you are a first-time voter 
they just want to check an ID ahead of time. That is to apply 
for--to apply to even register to vote within there.
    Could you not take that by using the word ``cast'' the vote 
and take this a step further beyond the intent of what this 
bill was really trying to accomplish? That is my only fear, the 
language that we use.
    Mr. Davis of Alabama. Will the gentleman yield?
    Mr. McCarthy. Yes.
    Mr. Davis of Alabama. I am trying to understand the 
gentleman from California's point. Certainly the intent of the 
bill that I have co-sponsored and that Mrs. Davis has 
introduced is that, obviously, we are not trying to prevent 
States from putting any normal requirements on who is eligible 
to vote. The bill is simply saying that there are no excuses 
any longer required for absentee voting.
    So a State can't say you have to prove that you are not 
going to be in the jurisdiction. A State can't require you to 
put forward any proof as to why you should be able to vote 
absentee. You are just allowed to do it by mail.
    So I am not following the gentleman's argument. Is it your 
contention that the language in lines 7 and 8, 9 and 10? I will 
yield to the gentleman, because I am not clear what it is you 
are saying that it does, frankly.
    Mr. McCarthy. I am saying we have a couple of cases before 
the Supreme Court. We have States that require different--just 
like we had a hearing the other day. One State would put on 
their voter reg requirements asking if somebody is a citizen or 
something else or if you are a first-time voter registration 
and you are doing it by absentee mail, you have to show an ID.
    If I used the word ``cast'' the vote--because I believe 
there is two processes in this. First, you put in an 
application for voter registration by mail. That is one action. 
Then when you send it in and you cast a vote, that is the 
second action. I believe this bill is dealing with the voter 
registration knocking down the roadblocks to getting that 
application to voting by mail. By using the word ``cast'' the 
vote, I believe this bill is going further, that someone could 
take that language, go beyond the intent of what we meant this 
bill to do and now apply that to other abilities for a State to 
use anything they believe on the eligibility to be able to be 
registered to cast the vote to go further. That is my fear.
    Mrs. Davis of California. I think it is still really--I 
think it confuses it more than anything else, and I think that 
the intent here is to make it clear that the State can't impose 
additional conditions. I am still unclear exactly what you are 
trying to do.
    Mr. McCarthy. I have the fear----
    Mrs. Davis of California. It adds an extra burden that is 
not available for people who vote in person, and I think the 
idea is to make sure that it is----
    Mr. McCarthy. This would take away all the burdens, but it 
would also say from the intent that you keep the integrity of 
it. So can I take this bill and now say a State goes out, such 
as Indiana and others, and has to have proof of citizenship and 
others and take this bill to say they no longer can do that.
    Mr. Davis of Alabama. Well, if the gentleman would yield, 
the intent of the bill is to, in a Federal context, create 
something close to a nationalized standard. So if the goal of a 
State is to put some extra layer in place, then I think the 
bill does seek to undercut that. That is a policy judgment the 
bill seeks to make.
    I think Mrs. Davis is exactly right. The very specific 
example you give, your argument is that the kind of restriction 
you identify doesn't go to eligibility, that it goes to 
verification. Frankly, that is the kind of argument U.S. 
District Courts resolve all the time.
    The fact that the bill is silent on that point I suppose 
could be litigated or debated. But the clear intent of the bill 
is to say that if you want to vote by mail you can do it.
    Now, I think I understand your point. Your point is that a 
State may want to go beyond that and put some extra 
verification means in place. But, frankly, one response to that 
is, I doubt very many States have those kinds of provisions, so 
it is hardly a prevailing national standard and it doesn't 
appear to trouble us too much that most States don't have that 
now.
    And the second and last point that I would make is, once 
again, I am certain there could be some basis if a State wanted 
to put some extra verification requirement in place. But, once 
again, I think the bill, frankly, would err on the side of 
having a nationalized standard for voting by mail.
    Mr. McCarthy. I think maybe if we stated publicly the 
intent of the bill that in no way if someone votes by mail that 
they would get to waive any requirements that a State would put 
on all voters, such as if I register to vote and they had some 
requirement on the registration, I am thinking more in the 
tenth amendment here, that somehow you had to prove something 
to be a registered voter whenever you meet their criteria. I 
met it. Somehow if I voted by mail I was able to waive that.
    And that was my only fear, by using the word ``cast''. And 
if that is not your intent, which I don't believe it to be, I 
believe the intent to be--and I support any of these 
roadblocks.
    People are busy. They want to apply for an absentee 
application. Why do we make it so difficult that I have to say 
not only am I sick but my doctor is going to sign it and 
someone is going to notarize it? I can't vote that day. I am 
going to vote by mail. I am going to have a verification, so I 
take away from the fraud. That is the intent of the bill, not 
to change the eligibility that the State can put on anybody 
else.
    Mrs. Davis of California. And, Mr. McCarthy, I appreciate 
that. Because, basically, that is what we are trying to do, to 
keep it a clean bill in that regard. And I think when we add 
additional language that opens things up in a different way, 
goes a different direction, then we begin to confuse the bill. 
And that is why I think if we can stick to the excuses issue 
that is what the intent of the bill is.
    Mr. McCarthy. Okay.
    Mrs. Davis of California. It really doesn't speak to the 
other issues. That is really--States, actually, as we know with 
Indiana, can do something. They may end up hearing that in the 
courts, but at the same time they can do that. That is their 
option.
    What we are trying to do is deal with a pretty narrow issue 
here, which is don't impose the excuses on the individual who 
chooses to vote if they are going to vote absentee.
    Mr. Davis of Alabama. If the gentleman would yield, just to 
reinforce Mrs. Davis' point. Your amendment goes much further 
than you would need to go. Perhaps if you were trying to add 
some report language about the intent of the committee, but you 
are trying to remove altogether one of the most important 
sections in the bill.
    If you take this section out, as you purport to do--you are 
not trying to slice it. You are trying to move it altogether. 
If you remove the subsection A altogether, then any State could 
go in and interfere with eligibility or--I am sorry--in effect 
put an excuse requirement in place.
    This provision of the bill is the only thing that preserves 
the no excuses character of the bill. So if you remove this 
particular section there is almost no point in having this 
bill. That's why I say your amendment goes much further than it 
needs to.
    Mr. McCarthy. That is not my intent.
    The Chairman. We are going to wind this down now. It has 
gone much past 5 minutes. But go ahead. I will let you have 
your answer.
    Mr. McCarthy. Well, I appreciate the chairman indulging us.
    What I would do is I would not ask for a vote on my 
amendment. Having Mrs. Davis state what the intent is, and I 
think that is really for the public to know putting it out 
there, I would just like to work with you. Because I think, in 
the end, maybe it is changing a language of a word so it is 
clarified further, but I will work with you as the bill moves 
forward. And I appreciate the dialogue and the colloquy it 
allowed.
    The Chairman. Does the gentleman withdraw his amendment?
    Mr. McCarthy. Yes.
    The Chairman. Thank you. I now would like to recognize Mrs. 
Davis for the purpose of offering a motion.
    Mrs. Davis of California. Mr. Chairman, I move the 
committee report the bill favorably to the House as amended.
    Mr. Lungren. Mr. Chairman, I wanted to strike the requisite 
number of words to be able to speak. I haven't spoken on this 
yet.
    The Chairman. I apologize. How could I overlook you? You 
can certainly speak.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    When Mrs. Davis came to me on this bill, I decided to take 
a serious look at it, not the least of which reason is that, in 
1990, when I ran for Attorney General in California, I actually 
lost on election day but won with the absentee ballots. 
Subsequent to that, my opponent supporters had six different 
lawsuits to try and invalidate 600,000 absentee ballots because 
the election officials in those counties had followed the 
advice given to them by the Secretary of State which turned out 
to be somewhat erroneous.
    I declared a victory 13 days later. My opponent conceded 
two and a half months later, just before I was sworn in. So I 
have a strong place in my heart for absentee ballots.
    However, I am concerned about the concerns raised by Norm 
Ornstein, a congressional scholar, about absentee ballots. He 
has indicated that once a ballot leaves the security that is 
provided by the traditional polling place it is much more 
difficult to guarantee that the intended person is voting his 
or her selection, is made without outside or undue influence 
and that the voted ballot makes it safely back to the elections 
official for tabulation.
    Additionally, I am old enough to remember a TV show when I 
was a kid called Father Knows Best. It sounds to me like this 
is the father or the mother of all governments, the Federal 
Government knows best.
    I was raised on the idea that our States are supposed to be 
laboratories of democracy, meaning that they could have 
different approaches to the same end. And in the very first 
finding in this bill we make a blanket statement, the inequity 
of voting rights exist in the--an inequity in voting rights 
exists in the United States because voters in some States have 
the universal right to vote by mail, while voters in other 
States do not. That is a flat statement that because some 
States make it far easier for absentee ballots than others, 
therefore there is inequity which exists. I don't accept that.
    There is something we are losing in this country called the 
communal nature of this country, the idea that we are all in a 
country together. That while we have other things to do maybe 
it is important enough for us to take the time to vote. That is 
to actually go and vote as a communal activity, where you go 
down to the polling place and you actually exercise your right 
to vote and you see other Americans voting.
    And what we are saying is that is a quaint idea that has no 
justification. Not only are we saying there is no 
justification, we are saying that is a quaint idea that is now 
going to be illegal because we know best.
    And it is tough enough in this country made up of people 
that come from all sorts of backgrounds, all sorts of 
ethnicities, all sorts of religions, all sorts of cultures. We 
are, by and large--with the exception of our Native American 
friends, we are, by and large, sons and daughters and 
descendants of people from other countries. We are basically a 
country of immigrants; and we need certain things, certain 
anchors to hold us together. And I think the grand exercise of 
the right to vote exemplified by people coming together at the 
polling places is one of those symbols that assists in that.
    Now some people just can't be able to do that. But what we 
are saying here is don't even make an effort to do that. We on 
the Federal level have decided that no excuse absentee ballots 
is the preferable way of doing things.
    And I appreciate the fact that it is more convenient. I 
appreciate the fact it means that you don't have to make the 
same sort of effort to try to get there. But, my golly, if we 
don't think in this country it is worth making an effort to 
vote that may be inconvenient, are we depreciating that 
exercise in our constitutional democracy?
    So, with all due respect, I looked at your bill, I 
understood what you were trying to do, and I understand what we 
have done in California. I have benefited from absentee 
ballots. But I just find it hard for us to make the decision 
that this is, as a matter of law, the preferred way of doing 
things.
    The Supreme Court has made it very, very clear that there 
is a right to vote, as there should be. But as far as I know 
the Supreme Court has never said or ever suggested that we have 
a right to absentee ballot. And I know that is what we are 
saying here, and I just think it is another example of 
overreach and that we may not know best. I know that is a 
terrible thing for us to consider as Federal elected officials. 
But I found that to be the case at times when I was a 
California Attorney General.
    So with all due respect to the gentlelady's efforts and her 
acceptance of amendments on our side of the aisle, and I 
appreciate that, I just can't support a bill that makes that 
absolute declaration that there is an inequity because some 
States have made the determination we ought to encourage people 
to actually go to the polls unless they cannot make it.
    So, with that, I am happy to yield back the balance of my 
time.
    The Chairman. I thank the gentleman and now recognize the 
gentlelady from California.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And I just want to respond really briefly, because I think 
that there is no attempt in this bill to say to people that 
this is not an important communal activity. I go to the polls. 
You go to the polls. But do you know what? Under existing 
conditions in some States, a Member of Congress would have to 
put in a special letter saying that they need an excuse in 
order to vote by mail. So it is inequitable.
    I think in Mr. Ehlers' State if you are 60 years old that 
is an excuse. If you are 59 or under, it is not. I mean, what 
is equitable about that?
    So I think that we need to be careful that we narrow this 
bill as we have done. We are allowing people who have 
circumstances that they can't necessarily control and get to 
the polls. We want to make that equitable for everybody. This 
in no way undermines the communal responsibility. In fact, we 
know that in those States that have gone to vote by mail it has 
actually created more interest in voting. It hasn't depressed 
voting there.
    So I would just hope that you would perhaps over a period 
of time take another look at this, and maybe it will help you 
out in the next election as well.
    We wouldn't want to go backwards in California. We are not 
asking people to do that. But, essentially, by saying we are 
not going to move forward, we are saying to some States that 
maybe they don't need to do this, and I think they have made 
the determination that they do. We just want to make it 
equitable for all States to be able to do this. And we are 
giving them plenty of time. I think we are putting the security 
provisions in there, and I hope that we can move forward with 
this.
    The Chairman. Will the lady make a motion?
    Mrs. Davis of California. Mr. Chairman, I move the 
committee report the bill favorably to the House, as amended.
    The Chairman. All those in favor of the motion, signify by 
saying aye. All those opposed, no.
    In the opinion of the Chair, the ayes have it. The motion 
is agreed to. Without objection, the motion to reconsider is 
laid upon the table and the bill reported to the House. Without 
objection, the staff are authorized to make technical and 
conforming changes to H.R. 281.
    Mr. Ehlers. Mr. Chairman, I reserve the right and I would 
like to move that I reserve the right to include minority views 
in the final report to the House. And also simply want to 
comment that I am still very concerned about the concerns 
raised by local governments to the National Council of State 
Legislatures. I hope that we can resolve that as we go through 
the process, because, otherwise, I presumably would vote no on 
the floor.
    Thank you.
    The Chairman. Members will have 2 additional days provided 
by the House rules to file views.
    Next, the committee will turn to H.R. 5036, the Emergency 
Assistance for Secure Elections Act of 2008.
    [The information follows:]
    [Additionally, pursuant to a request by Mr. Ehlers under 
unanimous consent on page 143, a letter pertaining to H.R. 5036 
follows:]
[GRAPHIC] [TIFF OMITTED] 42897A.030

[GRAPHIC] [TIFF OMITTED] 42897A.031

[GRAPHIC] [TIFF OMITTED] 42897A.032

[GRAPHIC] [TIFF OMITTED] 42897A.033

[GRAPHIC] [TIFF OMITTED] 42897A.034

[GRAPHIC] [TIFF OMITTED] 42897A.035

[GRAPHIC] [TIFF OMITTED] 42897A.036

[GRAPHIC] [TIFF OMITTED] 42897A.037

[GRAPHIC] [TIFF OMITTED] 42897A.038

[GRAPHIC] [TIFF OMITTED] 42897A.039

[GRAPHIC] [TIFF OMITTED] 42897A.040

[GRAPHIC] [TIFF OMITTED] 42897A.041

[GRAPHIC] [TIFF OMITTED] 42897A.042

[GRAPHIC] [TIFF OMITTED] 42897A.043

[GRAPHIC] [TIFF OMITTED] 42897A.044

[GRAPHIC] [TIFF OMITTED] 42897A.045

[GRAPHIC] [TIFF OMITTED] 42897A.046

[GRAPHIC] [TIFF OMITTED] 42897A.047

[GRAPHIC] [TIFF OMITTED] 42897A.048

[GRAPHIC] [TIFF OMITTED] 42897A.049

[GRAPHIC] [TIFF OMITTED] 42897A.050

[GRAPHIC] [TIFF OMITTED] 42897A.051

[GRAPHIC] [TIFF OMITTED] 42897A.052

[GRAPHIC] [TIFF OMITTED] 42897A.053

[GRAPHIC] [TIFF OMITTED] 42897A.054

[GRAPHIC] [TIFF OMITTED] 42897A.055

[GRAPHIC] [TIFF OMITTED] 42897A.056

[GRAPHIC] [TIFF OMITTED] 42897A.057

[GRAPHIC] [TIFF OMITTED] 42897A.058

    The Chairman. I now recognize myself for an opening 
statement. This legislation will help States ensure that the 
2008 general elections will have a paper record and elections 
across the country can be audited. This legislation is 
voluntary for States and provides funds to reimburse States for 
the cost if they choose to opt in.
    A substitute amendment will be offered by Chairwoman 
Lofgren of the Subcommittee on Elections as several 
improvements to the original legislation.
    And I would now like to recognize Ranking Member Ehlers for 
his opening remarks.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I thank you for your efforts to continue our discussion on 
how to best secure our Nation's elections systems; and I also 
commend Congressman Holt for his passionate work on this issue, 
as I know he has been very frequently and constantly involved 
with the Administration of Federal Elections.
    While this bill, H.R. 5036, authorizes reimbursement for 
the use of paper-based voting systems, an important distinction 
that separates this bill from previous legislation is that 
States are not required to use paper ballots or auditing but 
only request financial support should they choose to do so. In 
other words, it is an opt-in proposal.
    With only 8 months remaining before the general election, 
had paper balloting been mandatory, chaos would have likely 
been the result at polling places across the Nation. Instead, 
we will provide States an opportunity to select the method that 
best fits their needs; and that again is in accord with my 
attempt to respect the abilities and the rights of local and 
State government.
    It is important, however, that we evaluate the 
effectiveness of this in all Federal elections legislation to 
ensure that we are supporting States in the execution of their 
responsibilities with respect to Federal elections.
    I look forward to continuing the work with Chairman Brady, 
the members of the committee and Congressman Holt to ensure 
that all citizens will continue to cast a vote with confidence, 
that their voice will be heard and that their voice will not be 
muted by illegally cast ballots. In that spirit, I will be 
offering several amendments that I believe will improve the 
bill.
    And, Mr. Chairman, I would just comment, I understand that 
your side is willing to accept most of the amendments; and so 
we may be able to save a lot of time by just not going into a 
detailed discussion on those, even though I can do it if you 
wish.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.059
    
    [GRAPHIC] [TIFF OMITTED] 42897A.060
    
    The Chairman. I agree to that, sir.
    Mr. Ehlers. I will yield back.
    The Chairman. Does anybody else have any opening 
statements? I now call up H.R. 5036, the Emergency Assistance 
for Secure Elections Act of 2008.
    I would now like to recognize the gentlelady from 
California, Ms. Lofgren, the Chair on the Subcommittee on 
Elections, to offer an amendment.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I have an amendment in the nature of a substitute. I don't 
know if the clerk is prepared to read that.
    The Chairman. The amendment has been distributed.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.061
    
    [GRAPHIC] [TIFF OMITTED] 42897A.062
    
    [GRAPHIC] [TIFF OMITTED] 42897A.063
    
    [GRAPHIC] [TIFF OMITTED] 42897A.064
    
    [GRAPHIC] [TIFF OMITTED] 42897A.065
    
    [GRAPHIC] [TIFF OMITTED] 42897A.066
    
    [GRAPHIC] [TIFF OMITTED] 42897A.067
    
    [GRAPHIC] [TIFF OMITTED] 42897A.068
    
    [GRAPHIC] [TIFF OMITTED] 42897A.069
    
    [GRAPHIC] [TIFF OMITTED] 42897A.070
    
    [GRAPHIC] [TIFF OMITTED] 42897A.071
    
    [GRAPHIC] [TIFF OMITTED] 42897A.072
    
    [GRAPHIC] [TIFF OMITTED] 42897A.073
    
    [GRAPHIC] [TIFF OMITTED] 42897A.074
    
    [GRAPHIC] [TIFF OMITTED] 42897A.075
    
    [GRAPHIC] [TIFF OMITTED] 42897A.076
    
    [GRAPHIC] [TIFF OMITTED] 42897A.077
    
    [GRAPHIC] [TIFF OMITTED] 42897A.078
    
    [GRAPHIC] [TIFF OMITTED] 42897A.079
    
    [GRAPHIC] [TIFF OMITTED] 42897A.080
    
    [GRAPHIC] [TIFF OMITTED] 42897A.081
    
    [GRAPHIC] [TIFF OMITTED] 42897A.082
    
    [GRAPHIC] [TIFF OMITTED] 42897A.083
    
    [GRAPHIC] [TIFF OMITTED] 42897A.084
    
    The Chairman. Without objection, the reading of the 
amendment will be dispensed with, and the gentlelady from 
California is recognized for 5 minutes.
    Ms. Lofgren. Thank you.
    I offer this amendment in the nature of a substitute to 
meet some of the concerns expressed by various parties, 
disability groups, as well as State and local governments over 
the measure that was reported out by the committee last year.
    I want to commend Congressman Holt and his bipartisan co-
sponsors for their continued dedication to the issue of 
election reform.
    In 2008, the election in November is quickly approaching; 
and options must be provided to ensure the integrity of the 
vote. This substitute makes several changes to the legislation, 
while keeping the core purpose of the bill, providing a voter 
verifiable paper and auditable paper trail.
    It reimburses jurisdictions for retrofitting paperless 
touch-screen voting machines, or DREs, with systems that 
produce a voter-verifiable paper record.
    It allows for reimbursement for jurisdictions to obtain 
backup paper ballots in the event of failure of electronic 
voting systems.
    It authorizes reimbursement for jurisdictions which conduct 
a manual audit of the Federal and any State and local election 
in November of 2008 in no less than 2 percent of the precincts. 
This is, however, 100 percent optional. Jurisdictions can pick 
and choose. It is not all or nothing.
    I would note also that the funding has been changed to such 
sums as necessary, recognizing that this is going to be an 
appropriations issue more than an authorization issue.
    I will say that while the NCSL, NACo, et cetera, have not 
come out yet in support of the bill, they have been part of the 
discussions on the compromise from day one. It is my 
understanding they do not oppose the bill. The changes we have 
made reflect some of their concerns, particularly the changes 
to the audit section of the DRE retrofitting and the use of 
funding for backup paper ballots.
    This is not a mandate. It is optional. And while we 
recognize concerns, significant compromises were made to the 
bill through the substitute.
    And I understand that Mr. Ehlers is prepared to offer four 
amendments; and, to expedite, I would note that his amendment 
about jurisdiction involved, his amendment requiring the 
election officials to secure the ballots, and his amendment 
requiring election officials conducting the hand count to be 
split equally down party lines of the two most parties 
receiving the greatest number of votes is acceptable to us.
    You may want to introduce them, but we would assume that 
you would accept our agreement to those amendments and we could 
just discuss the one amendment that we do have some concerns 
about, not the intent but the technicality. So, with that, I 
hope we can move forward on a bipartisan basis.
    Mr. Ehlers, in particular, reached out to me before the 
recess to see how we could work together in a collaborative 
way; and it is a lovely way to work in this committee. And with 
that, Mr. Chairman, I would yield back.
    The Chairman. I understand that we have three amendments 
that we may agree to vote on en bloc.
    Mr. Ehlers. Yes. Mr. Chairman, I would suggest that we vote 
on the Ehlers Amendments 1, 2 and 4 en bloc.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.085
    
    [GRAPHIC] [TIFF OMITTED] 42897A.086
    
    [GRAPHIC] [TIFF OMITTED] 42897A.087
    
    [GRAPHIC] [TIFF OMITTED] 42897A.088
    
    The Chairman. 1, 2 and 4 en bloc. All those in favor, 
signify by saying aye to vote only 1, 2 and 4 amendments en 
bloc. Signify by saying aye.
    Any opposed? No.
    1, 2 and 4 are agreed to.
    And we now have Amendment No. 3.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.089
    
    The Chairman. And, Mr. Ehlers, I will now recognize you.
    Mr. Ehlers. Thank you, Mr. Chairman; and I think I can 
change this one so that it is acceptable, too. I didn't 
realize----
    The Chairman. We will certainly entertain that motion, sir.
    Mr. Ehlers. Amendment No. 3 provides that--because this 
bill provides that elections officials can decide to use paper 
and do a hand count, this amendment states all ballots shall 
also be run through a tabulating machine. Our intent was not to 
have ``shall'' but to put--to have ``may'', just to indicate 
that they could. And let me give the reason for this.
    It is not to double-check the hand count. It is not to 
double-check the hand count. The intent was, as a scientist, I 
am sitting here and saying, this is a great experiment. If we 
have a bunch of people hand counting and if there are also 
tabulators handy there, why don't they run them through the 
tabulators, too, and we will get a comparison of the two.
    So I would suggest that if we change the ``shall'' to a 
``may'' we accomplish what I was trying to do, which is simply 
to make this into an experiment. The hand count, as I 
understand, would still be the official one, but the main count 
would be to check on the accuracy of the count.
    Ms. Lofgren. We are, each of us, blessed to have a 
dedicated staff on the committee that is sorting through some 
suggestions on this right now. I am wondering if we----
    The Chairman. Can you wonder out loud?
    Ms. Lofgren. It was suggested that we accept the word 
``may'' and add at the end of the amendment ``the use of the 
tabulating machine or scanner shall be solely to verify the 
tally determined by the hand count and not to substitute 
another tally of the ballots''. I don't know. I think that is 
consistent with what you are trying to do. And your staff is 
now nodding yes. This is a sausage-making factory in action, 
folks.
    Mr. Ehlers. But we make fine sausage here.
    Ms. Lofgren. Is that by unanimous consent?
    Mr. Ehlers. What I prefer really is to have the location 
jurisdiction compare the two and decide which one is more 
accurate. But I am not going to--I don't want to require them 
to. The basic idea is, as I said, to really get a comparison of 
the accuracy of hand counting versus a tabulating count. And so 
I guess I will accept your version.
    Ms. Lofgren. So we are asking unanimous consent then to 
substitute the word ``may'' for ``shall'' and this sentence at 
the end of the amendment.
    Mr. Ehlers. I am willing to accept that and--with one 
caveat, that you and I will have further discussions on that 
last thing as it goes through the process.
    Ms. Lofgren. I think that is a fine way to proceed, Mr. 
Chairman; and on that basis we are prepared to accept this 
amendment.
    The Chairman. I would like to recognize Mr. Capuano first.
    Mr. Capuano. Mr. Chairman, I don't know about anybody else, 
but I have actually run elections on all kinds of levels. And I 
will tell you that there are several parts of this bill that I 
don't like, but it is better than the last bill we did, so I 
will vote for it. But I vote for it with all kinds of 
reluctance and all kinds of hope that we can change it further, 
including Ehlers 2. I didn't like that, requiring 8 hours delay 
in a hand count. Fine, I am with it for now, but I am not 
really with it.
    And it is the same thing here. The only elections I have 
seen stolen is when there is nothing but a hand count. That is 
the only elections I have ever seen stolen. A machine count 
with a paper ballot trail to verify it, I am not aware of any 
that can get stolen. A hand count can get stolen, and I will 
tell you how to do it.
    I have no problem trying to work this out later on. But the 
concept here does not bother me. I don't know why it should 
bother anybody who has actually ever been in a place where they 
actually count ballots. I have been there all my adult life, 
and there are ways to verify these things that are very easy. 
The location jurisdictions are more than capable of doing this.
    As long as you provide a question, that is what courts will 
do. Like it or not, we can't do this. These things will end up 
in courts with well-paid attorneys arguing the intent of the 
voter both on the hand count and the machine count.
    So I think that this bill still needs a lot of work. I am 
going to vote for it today because I know that Ms. Lofgren and 
her staff have done great work on I think a very difficult 
bill. And I also like the symbolism of us trying to get to a 
paper trail. This bill only gets us a few steps down the road 
and I think creates other potential problems, but it is much 
better than the bill that we did previously. And I hope that 
before any of these things actually get enacted we have plenty 
of opportunity--I am sure we will--to actually make something 
work.
    Because in the final analysis I think because--I don't know 
why we do this. But this is actually a very simple thing. I 
don't know why we are encouraging people or allowing people, 
more importantly, using taxpayers' money to allow people to go 
out and continue to do things that are stupid. And, on top of 
that, we take communities that have done the right thing on 
their own dime and not give them a nickel, not give them a 
nickel. It is just amazing to me that we keep throwing good 
money after bad without having certain requirements of what 
kind of machines they can use and what we say we want.
    And the only thing I want, the only thing I want is a paper 
trail. All the rest is window dressing. And I want a paper 
trail because there will be arguments, there will be debates, 
there will be discussions, there will be court cases, there 
will be recounts on hand, there will be recounts on machine, 
and it will be a mess on individual cases. But at least there 
will be a paper trail and the voters' decisions will at least 
have a better opportunity to be found at some point.
    So I think that--and this amendment is a classic example. I 
don't know what the concern is, but this is not the place to 
really get into the meat of it.
    At the same time, I think we need to get to the point where 
we understand the local officials are perfectly capable of 
making these decisions. People have been running these 
elections for a long time. They know how to do it. We don't 
have to hold their hand at every step along the way.
    Again, either amendment here is fine by me, as long as--and 
I just want to be clear. I just want it at on the record that I 
have real serious concerns about what we are about to do. I am 
for it, but hesitatingly.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Capuano. Certainly.
    The Chairman. I would first like to thank the gentleman. I 
understand your remarks and I take them quite validly, except 
for the part where you may have incriminated yourself.
    Mr. Capuano. I didn't say I did it. I said I knew how to do 
it.
    Ms. Lofgren. How did you learn?
    The Chairman. I recognize Mr. Ehlers.
    Mr. Ehlers. Thank you.
    I wanted to take exception to the comment why do we do such 
stupid things, but my first thought was maybe because we do 
them so well. In any event, I agree with much of what you say. 
I have the same feelings, and I think much in the bill is 
overkill. But I have agreed to work with Mr. Holt and try to 
produce a bill that would be acceptable.
    I am as skeptical as you are of hand counting, because I 
have been in the room, too. And you know it is not only the 
easiest to commit fraud but also the most difficult to do 
accurately. And that is why I wanted to add the--at least allow 
the local officials, if they wish to run it through the 
tabulator, too, it gives them some idea by comparing the two. 
So that was the intent of the amendment. Unfortunately, it came 
out as a command, rather than an option.
    But, at any rate, I think we should just go with the 
compromise we have agreed to and continue that and will work 
with the bill as it goes through.
    The Chairman. Can we have unanimous consent to change the 
wording on Amendment No. 3? Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42897A.090
    
    And with the wording being changed, we now will vote on 
accepting No. 3. All those in favor, signify by saying 
aye.Unopposed, Amendment No. 3 is now also accepted.
    The question now is agreeing to the Lofgren amendment in 
the nature of a substitute as amended. Those in favor signify, 
by saying aye. Those opposed? No.
    The ayes have it.
    Ms. Lofgren. Mr. Chairman, I move that the committee report 
the bill, H.R. 5036, as amended, favorably to the House.
    The Chairman. All those in favor of the motion, signify by 
saying aye. Any opposed? No.
    The ayes have it. The motion is agreed to. Without 
objection, the motion to reconsider is laid upon the table. The 
bill will be amended and reported to the House.
    Mrs. Davis of California. Mr. Chairman, I am not sure if 
this is the right place--go ahead. I just wanted to--I had 
meant to ask for unanimous consent to insert letters into the 
previous bill.
    The Chairman. Without objection, that is agreed to.
    Mr. Ehlers.
    The Chairman. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I have one similar request, that the National Conference of 
State legislatures and Secretary of State Carnahan of Missouri 
have written me a letter expressing concerns about it; and I 
ask unanimous consent that it be placed in the record of 
today's meeting.
    The Chairman. Without objection.
    [The information follows:]
    [The letter from Secretary Carnahan follows. The letter 
from the National Conference of State Legislatures appears 
earlier in the transcript on page 49:]
[GRAPHIC] [TIFF OMITTED] 42897A.102

[GRAPHIC] [TIFF OMITTED] 42897A.103

    Mr. Ehlers. I also move that minority views--that we have 
the usual 5 days or whatever period is correct to express 
minority views in the final report.
    The Chairman. I am being told we can have 2 additional days 
to file views.
    Mr. Ehlers. Yeah, 5 days. And then I also wanted to add a 
comment.
    The Chairman.Mr. Ehlers, I think it is 2 days.
    Mr. Ehlers. Two days. I am sorry.
    Then I wanted to also add a comment into the record. I had 
originally planned to offer a motion to sunset this bill at the 
end of the 2008 elections because it is intended to be a trial 
type of bill. However, the legislative branch--I am sorry--the 
legislative service informed us it is not necessary because the 
bill basically sunsets itself because it designates this only 
applies to the 2008 election. I wanted to get that on the 
record so that all election officials across the country 
realize this is just a one-shot thing.
    The final thing, I also raise a question--we had discussed 
this, but for employees whose primary duty station is 
Washington, D.C., expenses are not reimbursable during the 
district work period. We had discussed that on the taxi issue. 
And do you need unanimous consent to add that?
    The Chairman. I think we have disposed of that, but I think 
that is already in.
    Mr. Ehlers. If you disposed of it, that's fine.
    The Chairman. But that is agreed to anyway, and we will 
make sure that that happens.
    Mr. Ehlers. Okay. That takes care of all my final business 
here. Thank you.
    The Chairman. Without objection, the staff will be 
authorized to make the technical and conforming changes to 
prepare H.R. 5036 for filing.
    Now I imagine this hearing is now adjourned.
    [Whereupon, at 1:55 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
